              Audit Report



Concurrent Beneficiaries Improperly
 Receiving Payments in Excess of
          Federal Limits




       A-06-12-22131 | January 2014
MEMORANDUM


Date:      January 14, 2014                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits
           (A-06-12-22131)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether individuals concurrently entitled to Supplemental Security Income payments and
           Old-Age, Survivors and Disability Insurance benefits received combined payments in excess of
           Federal limits.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Concurrent Beneficiaries Improperly Receiving Payments in
Excess of Federal Limits
A-06-12-22131
January 2014                                                           Office of Audit Report Summary

Objective                               Our Findings

To determine whether individuals        SSA improperly issued approximately 2,747 concurrent
concurrently entitled to Supplemental   beneficiaries combined SSA payments that exceeded Federal limits.
Security Income (SSI) payments and
Old-Age, Survivors and Disability       •   246 concurrent beneficiaries received combined payments in
Insurance (OASDI) benefits received         excess of Federal limits for undetermined reasons. Available
combined payments in excess of              records indicated that SSA had electronically linked the
Federal limits.                             beneficiaries’ payment records; however, for unexplained
                                            reasons, the payment system used incorrect OASDI payment
Background                                  amounts when it computed the SSI payments.

The OASDI program provides benefits     •   2,349 concurrent beneficiaries received combined payments in
to wage earners and their families in       excess of Federal limits because of system-related payment
the event the wage earner retires,          computation errors.
becomes disabled, or dies. The SSI
program provides payments to            •   152 concurrent beneficiaries received combined payments in
financially needy individuals who are       excess of Federal limits because of system-related payment
aged, blind, or disabled.                   computation errors. We reported these payment errors to SSA
                                            as part of a prior audit. In 2011, SSA reported it had taken
Under the SSI program, each eligible        corrective action to resolve these errors. However, payment
individual living in his/her own            errors on these records persisted.
household and having no other
countable income is provided a          We estimate that SSA overpaid these beneficiaries approximately
maximum monthly Federal cash            $3.4 million in SSI payments because of these errors. If these
payment of $710. The Social Security    errors are not corrected, we estimate SSA will overpay these
Administration (SSA) reduces SSI        beneficiaries approximately $2 million over the next 12 months.
payments by a recipient’s countable
income (which includes OASDI            Our Recommendations
benefits), less certain exclusions.
                                        On September 27, 2013, we provided SSA with a file that identified
                                        the 2,747 beneficiaries. We recommended that SSA review the
                                        2,747 cases and take appropriate action to recover the
                                        overpayments and prevent future payment errors, as appropriate.
                                        We also recommended that SSA correct the systems errors that
                                        caused these payment errors or implement compensating controls to
                                        timely identify and correct these errors on individual payment
                                        records.

                                        SSA agreed with our recommendations but did not agree with our
                                        overpayment estimates.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Unexplained Errors ....................................................................................................................3
     SID Segment Missing ................................................................................................................4
     Unearned Income Reduction Indicator Code “Y” .....................................................................4
     Payment Errors Forwarded to SSA in 2009 that Continued in 2012 .........................................5
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................6
OIG Response ..................................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sample Results, Questioned Costs, and Funds Put to Better Use Estimates ...... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)
ABBREVIATIONS
COLA                 Cost-of-Living Adjustment

FBR                  Federal Benefit Rate

MBR                  Master Beneficiary Record

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

SID                  Supplemental Security Income Data

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSN                  Social Security Number




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)
OBJECTIVE
Our objective was to determine whether individuals concurrently entitled to Supplemental
Security Income (SSI) payments and Old-Age, Survivors and Disability Insurance (OASDI)
benefits received combined payments in excess of Federal limits.

BACKGROUND
The OASDI program provides benefits to wage earners and their families in the event the wage
earner retires, becomes disabled, or dies. The SSI program provides payments to financially
needy individuals who are aged, blind, or disabled. In December 2012, approximately
2.8 million individuals were receiving both OASDI benefits and SSI payments (concurrent
beneficiaries). 1

Under the SSI program, each eligible individual living in his/her own household and having no
other countable income is provided a maximum monthly Federal cash payment of $710. 2 As
illustrated below, SSA reduces SSI payments by the amount of a recipient’s countable income, 3
less certain exclusions. 4

For example, a concurrent beneficiary receives a $650 monthly OASDI payment and has no
other countable income. Because the beneficiary’s OASDI payment is less than the Federal
Benefit Rate (FBR) plus the $20 unearned income exclusion, the SSI payable to the individual is
$80 (see computation below).

                        Unearned Income (OASDI Benefits)                 $650
                         Less: Unearned Income Exclusion                 ($20)
                                Equals: Countable Income                 $630
                                               2013 FBR                  $710
                                      Less: Countable Income            ($630)
                                  SSI Federal Benefit Payable             $80




1
    SSA Publication No. 13-11976, Table 1, SSI Recipients by State and County, 2012 (June 2013).
2
 Also referred to as the FBR. The maximum SSI payment increases with the annual cost-of-living adjustment
applicable to Social Security benefits.
3
 Per SSA, POMS, SI 00810.300B (October 19, 2011), countable income includes both countable earned and
countable unearned income.
4
 SSI recipients can have $20 per month in unearned income without it affecting their SSI payment. SSA considers
OASDI benefits as countable unearned income. Monthly unearned income in excess of $20 results in a dollar-for-
dollar reduction in SSI payments.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)                1
In April 2012, we obtained data from SSA’s payment records that identified 14,800 concurrently
entitled beneficiaries who received combined SSA payments that exceeded the FBR plus the
$20 unearned income exclusion by at least $3. We checked SSA payment records in July and
October 2012 and determined that 2,798 of the 14,800 concurrent beneficiaries continued
receiving combined Social Security payments in excess of the FBR. 5 Our review focused on
payments to these beneficiaries. See Appendix A for additional information on our scope and
methodology.

RESULTS OF REVIEW
SSA improperly issued 2,747 concurrent beneficiaries combined Social Security payments that
exceeded Federal limits. 6

•   246 concurrent beneficiaries received combined payments that exceeded Federal limits for
    unexplained reasons. 7 Available records indicated that SSA electronically linked the
    beneficiaries’ payment records; however, the payment system used incorrect OASDI
    payment amounts when it computed the SSI payments. We forwarded five sample cases to
    SSA for review. SSA staff acknowledged, but could not explain, the payment errors.

•   2,349 concurrent beneficiaries received combined payments that exceeded Federal limits
    because of system-related payment computation errors.

    o For 249 beneficiaries, the Master Beneficiary Record (MBR) did not contain an SSI data
      (SID) segment. 8 The SID segment establishes an electronic link between the OASDI and
      SSI payment records for concurrent beneficiaries. Because SSA did not establish this
      link, it did not offset the individuals’ OASDI benefits against their SSI payments.



5
 There are several reasons why concurrent beneficiaries who received combined payments in excess of the FBR in
April 2012 no longer received payments in excess of FBR in November 2012, including changes in beneficiary
payment status, variations caused by the application of retrospective monthly accounting, or corrections processed
by SSA personnel.
6
  We initially identified 2,798 concurrent beneficiaries receiving combined payments in excess of the FBR. We
determined that 50 of the 2,798 beneficiaries were blind individuals who have been in continuous SSI payment
status since the program began in 1972. These individuals are granted more advantageous income counting under
SSI “grandfathering” provisions (see SSA, POMS, SI 01210.100, effective May 20, 1999). Payments in excess of
the FBR to these 50 individuals were not improper. In one additional case, payment records for a parent and child
erroneously cited the child’s Social Security number, providing the false appearance that one beneficiary received
combined payments in excess of the FBR. This was an administrative error, not a payment error.
7
 This group initially included 296 concurrent beneficiaries receiving combined payments in excess of the FBR.
During the review, we determined that payments in excess of the FBR to 50 beneficiaries were not improper (see
Footnote 6), reducing the number of discrepancies in this category from 296 to 246.
8
  This group initially included 250 concurrent beneficiaries receiving combined payments in excess of the FBR.
However, during the review, we determined that one case was not actually a payment error (see Footnote 6),
reducing the number of discrepancies from 250 to 249.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)                   2
     o For 2,100 beneficiaries, a systems input intended to prevent double counting 9
       unintentionally froze OASDI benefit amounts used in subsequent SSI unearned income
       computations at amounts lower than those actually paid. SSA was aware of this
       programming error.

•    152 additional concurrent beneficiaries received combined payments that exceeded Federal
     limits because of system-related payment computation errors we previously identified and
     reported to SSA’s Office of Operations. We requested corrective action and incorporated the
     value of improper payments to these beneficiaries in our February 2012 report. 10 SSA
     reported that it took corrective action on these errors in 2011. However, payment errors on
     these records persisted. 11

Based on our sample results, we believe these errors resulted in approximately $3.4 million in
improper SSI payments. If the Agency does not correct these errors, we estimate it will issue
approximately $2 million in additional excessive SSI payments to these beneficiaries over the
next 12 months. See computations in Appendix B below, Table B-7.

Unexplained Errors
SSA issued 246 concurrent beneficiaries excessive SSI payments because of a processing error
that caused the payment system to use incorrect OASDI payment amounts when it computed the
beneficiaries’ SSI payments. To illustrate, in December 2011, SSA began paying an individual
$578 in OASDI benefits. For unexplained reasons, in February 2012, the SSI payment
computation began using $0 as the benefit amount instead of the $578 OASDI benefit amount
the beneficiary continued receiving. Because of this error, SSA improperly issued this individual
$4,288 in SSI payments.

Based on our sample results, we estimate these errors resulted in approximately $427,000 in
improper SSI payments. If the Agency does not correct these errors, we estimate it will issue
approximately $280,000 in additional excessive SSI payments to these beneficiaries over the
next 12 months. See sample results at Appendix B, Table B-2.




9
 Refers to amounts SSA withholds from a beneficiary’s OASDI payment to satisfy a prior overpayment. If SSA
determines the beneficiary was concurrently entitled when an OASDI overpayment occurred and offset the overpaid
amount from the beneficiary’s previous SSI payments, SSA excludes withheld amounts from the SSI payment
computation.
10
  SSA, OIG, Supplemental Security Income Recipients Receiving Social Security-administered Payments in Excess
of Federal Limits (A-06-10-21066), February 2012.
11
  In 131 of the 152 cases, payment errors resulted from use of the systems input intended to prevent double
counting.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)              3
SID Segment Missing
We identified approximately 249 concurrent beneficiaries who had received excessive SSI
payments because SSA did not electronically link the individuals’ OASDI and SSI payment
records. To illustrate, in February 2011, SSA authorized an individual to receive $674 in
monthly SSI payments. In August 2011, SSA authorized the same individual to receive
$1,160 in monthly OASDI benefits. Initiation of the OASDI payments should have made the
individual ineligible for SSI payments. However, because SSA did not link the beneficiary’s
OASDI and SSI payments, SSA continued issuing both payments and had improperly issued this
individual $10,374 in SSI as of November 2012. 12

Based on our sample results, we estimate these errors resulted in approximately $956,000 in
improper SSI payments. If the Agency does not correct these errors, we estimate it will issue
approximately $613,000 in additional excessive SSI payments to these beneficiaries over the
next 12 months. See computations in Appendix B, Table B-4.

Unearned Income Reduction Indicator Code “Y”
We identified approximately 2,100 beneficiaries who received excessive SSI payments because
of computation errors that occurred when SSA staff input an unearned income reduction
indicator code of “Y” on their payment records. This code indicates that field office staff should
not consider amounts withheld from the beneficiaries’ OASDI payments as unearned income
because of SSA’s double-accounting rules. However, application of this indicator erroneously
froze the OASDI benefit amount used in the SSI payment computation during the entire period
SSA recouped OASDI overpayments from the beneficiaries. Because of a systems issue, once
SSA input the indicator code on the payment record, the SSI payment computation no longer
considered benefit payment increases awarded to these beneficiaries.

In these cases, SSA used smaller OASDI benefit amounts in the November 2012 computation
than it actually paid these individuals. To illustrate, from April 2009 to December 2011, SSA
issued a concurrent beneficiary a $500 OASDI payment and a $194 SSI payment. In May 2009,
SSA continued collecting a $6,346 overpayment by withholding $41 from each monthly OASDI
payment. SSA placed an unearned income reduction indicator “Y” on the individual’s SSI
record to prevent double counting. Cost-of-living adjustments in 2012 and 2013 increased the
individual’s OASDI payment to $529. However, SSA erroneously continued offsetting the SSI
payment based on the $500 OASDI benefit amount paid to this individual from 2009 through
2011. Because of this error, SSA has overpaid this individual every month since the 2012
adjustment and continues overpaying the individual $29 in monthly SSI.




12
     Cost-of-living adjustments increased the individual’s monthly SSI payment from $674 in 2011 to $710 in 2013.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)                  4
Based on our sample results, we estimate these errors resulted in approximately $2 million in
improper SSI payments. If the Agency does not correct these errors, we estimate it will issue
approximately $1.1 million in additional excessive SSI payments to these beneficiaries over the
next 12 months. See computations in Appendix B, Table B-6.

Payment Errors Forwarded to SSA in 2009 that Continued in 2012
SSA did not correct all discrepancies identified during our 2009 audit 13 or take sufficient action
to prevent future payment errors. As part of our 2009 audit, we provided SSA’s Office of
Operations with a data file that identified 7,214 payment records where the SSI unearned income
offset computation incorporated OASDI benefit amounts that were less than amounts SSA
actually paid the beneficiaries and recommended SSA take corrective action. The data file we
provided SSA in 2009 included 885 beneficiaries identified as part of our current review. Our
sample results indicated that in most of the 885 cases, SSA had not taken corrective action. 14

CONCLUSIONS
SSA issued about $3.4 million in excess SSI payments to approximately 2,747 concurrent
beneficiaries because it did not accurately offset OASDI benefits against their SSI payments. If
SSA does not correct these payment errors, we estimate the Agency will issue approximately
$2 million in excessive SSI payments over the next 12 months.

RECOMMENDATIONS
On September 27, 2013, we provided SSA with a file identifying the 2,747 beneficiaries. To
assist SSA in preventing additional improper payments to these individuals, we recommend that
SSA:

1. Review the 2,747 cases and take appropriate action to correct payment errors, establish
   overpayments, and prevent future payment errors.

2. Correct the processing errors that resulted in missing SID lines on concurrent beneficiaries’
   MBR or involved beneficiaries whose SSI payment record contained an unearned income
   reduction indicator code of “Y”; or implement compensating controls to timely identify and
   correct these errors on individual payment records.




13
  SSA, OIG, Supplemental Security Income Overpayments to Concurrent Beneficiaries Resulting from Incorrect
Benefit Calculations (A-06-09-29103), September 2009.
14
  Our sample results included 23 cases that we provided to SSA for corrective action in 2009. In 18 of 23 cases,
SSA had not corrected the payment errors. Even if SSA corrected the payment errors in 2009, benefit payment
increases resulting from application of 2012 and 2013 cost-of-living adjustments could have caused the
overpayments to resume.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)                 5
AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the text of the Agency’s comments.
SSA disagreed with our overpayment estimates. SSA stated it reviewed a small sample of the
cases identified as having received combined payments in excess of Federal limits. SSA’s
review indicated that Agency staff had corrected a number of the payment errors during the
annual Cost-of-Living Adjustment (COLA) run or through routine field office case development.

OIG RESPONSE
Because we initiated the review in November 2012, we based overpayment estimates on
payment errors that occurred at the end of Calendar Year 2012. SSA staff correcting some of
these errors after our review period had no impact on our $3.4-million estimate of improper
payments SSA issued through November 2012.

We agree that subsequent correction of some of these errors reduces the amount of future
improper payments SSA will issue these specific beneficiaries over the next 12 months. While
SSA’s limited review indicated that some errors were corrected, most were not. Absent
corrective action, these overpayments would likely continue beyond the 12-month estimation
period. Further, our estimates did not incorporate the 1.7 percent COLA implemented in
January 2013. Use of 2013 COLA-adjusted payment amounts would have increased our
estimate of future improper payments.

We do not believe that re-reviewing each sample case and adjusting our estimates at subsequent
intervals was necessary to establish the impact of these payment errors. SSA will be reviewing
and taking corrective action on each case in response to our recommendations. Once completed,
SSA will know the exact amount of overpayments it issued to these beneficiaries and we can
revisit this issue, if necessary.




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   6
                                       APPENDICES




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and Social Security Administration
    (SSA) regulations, rules, policies, and procedures.

•   Reviewed relevant Office of the Inspector General reports.

•   Researched the Master Beneficiary/Supplemental Security Record interface.

•   Obtained data identifying 2,718,790 concurrent beneficiaries in current payment status as of
    April 2012. We then removed records where

    o the date of entitlement was from February to November 2012 because of the lag between
      the date of entitlement and actual date the beneficiary received benefits,

    o the beneficiary received windfall amounts from July 2011 to August 2012 because of the
      lag when beneficiaries actually received the windfall amount,

    o the beneficiary received State supplemental payments but did not receive Federal
      Supplemental Security Income (SSI) payments, and

    o combined SSA payments exceeded the Federal limit by less than $3.

•   Identified 14,800 records where concurrent beneficiaries received combined SSI and
    Old-Age, Survivors and Disability Insurance (OASDI) payments that exceeded the Federal
    Benefit Rate (FBR) plus the $20 unearned income exclusion by $3 or more.

•   Screened the 14,800 records in July and October 2012 and identified 2,798 records where the
    combined SSI and OASDI payments continued to exceed the FBR plus the $20 unearned
    income exclusion by $3 or more. We reviewed the 2,798 cases and found the following.

    o Identified 296 concurrent beneficiaries who received SSA benefits in excess of Federal
      limits for unspecified reasons. We randomly selected 30 records for detailed review.

    o Identified 2,350 concurrent beneficiaries who received SSA benefits in excess of Federal
      limits because either no SSI data (SID) segment existed on the Master Beneficiary
      Record or an unearned income reduction indicator code “Y” existed on the Supplemental
      Security Record. We randomly selected 75 records for detailed review.

    o Identified 152 concurrent beneficiaries who received SSA benefits in excess of Federal
      limits because either their OASDI payment record did not contain an SID segment or
      their SSI payment record contained a systems input to prevent double counting. We
      reported these cases to SSA in 2011, and SSA reported that it took corrective action.
      However, we determined the payment errors on these records persisted. We did not


Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   A-1
        include the value of excess payments to these beneficiaries in our current financial
        projections.

•   We randomly selected 105 records for detailed review. For each sampled record, we
    reviewed SSA payment records.

    o Calculated amounts that beneficiaries’ past SSA payments improperly exceeded FBR as
      of November 2012.

    o Determined whether SSA had corrected the payment error as of December 2012. If SSA
      had not corrected the payment errors, we estimated future improper payments based on
      excess amounts paid in December 2012 times 12 months.

    o Determined whether we had referred the payment error to SSA for corrective action in
      June 2009 (as part of our 2009 audit, Supplemental Security Income Overpayments to
      Concurrent Beneficiaries Resulting from Incorrect Benefit Calculations). If so, we
      calculated amounts that beneficiaries’ past SSA payment had improperly exceeded FBR
      since June 2009.

We conducted our audit from November 2012 to May 2013 in Dallas, Texas. We determined the
data used for this audit were sufficiently reliable to meet our audit objective. The entities audited
were the field offices and program service centers under the Office of the Deputy Commissioner
for Operations and the Offices of Retirement and Survivors Insurance Systems, Disability
Systems, and Applications and Supplemental Security Income Systems under the Office of the
Deputy Commissioner for Systems. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   A-2
Appendix B – SAMPLE RESULTS, QUESTIONED COSTS, AND
             FUNDS PUT TO BETTER USE ESTIMATES
We identified 296 concurrent beneficiaries who received combined April 2012 Supplemental
Security Income (SSI) and Old-Age, Survivors and Disability Insurance (OASDI) payments in
excess of Federal limits for undetermined reasons and continued receiving excess payments in
July 2012. We randomly selected 30 of these records for review and determined that the Social
Security Administration (SSA) issued excessive SSI payments to 25 beneficiaries. 1 As of
December 2012, SSA continued issuing excessive payments to 22 of the 25 beneficiaries. 2

                          Table B–1: Undetermined Reason Sample Results
                                 Records in Population                                              296
                                                            Sample Size                              30
                                Sample Records with Past Payment Errors                              25
                    Past Payment Error Amounts Through November 2012                            $43,251
                           Sample Records with On-going Payment Errors                               22
                           Erroneous Payment Amount in December 2012                             $2,369
        Future Erroneous Payments (December 2012 Amount * 12 Months)                            $28,428

                             Table B–2: Undetermined Reason Estimates
                                               Past Payment Error              Future Payment Error
                                                     Amount                           Amount
                      Point Estimate                 $426,744                        $280,490
              Projection Lower Limit                 $254,239                        $107,356
              Projection Upper Limit                 $599,250                        $453,623
      Note: All projections are at the 90-percent confidence level.

We identified 250 concurrent beneficiaries who received combined April 2012 SSI and OASDI
payments in excess of Federal limits because their payment records did not contain an SSI data
(SID) segment that electronically linked the payment records and continued receiving excess
payments in October 2012. We randomly selected 25 of these records for review and determined



1
  Five of the 30 records reviewed involved blind individuals who had been in continuous SSI payment status since
the program began in 1972. These individuals are granted more advantageous income counting provisions, so
payments in excess of Federal Benefit Rate to these individuals were not improper. Upon further review, we
determined that 50 of the 296 concurrent beneficiaries in this group were similarly subject to the more advantageous
income counting provisions. Therefore, we plan to forward 246 records to SSA for corrective action.
2
 As of December 2012, SSA corrected the payment errors on 3 of the 25 records that involved improper payments.
We excluded these records from our forward estimates.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)              B-1
that SSA issued excessive SSI payments to 24 beneficiaries. 3 As of December 2012, SSA
continued issuing excessive payments to 22 of the 24 beneficiaries. 4

                          Table B–3: Missing SID Segment Sample Results
                                  Records in Population                                          250
                                                            Sample Size                           25
                                Sample Records with Past Payment Errors                           24
                    Past Payment Error Amounts Through November 2012                         $95,551
                           Sample Records with On-going Payment Errors                            22
                           Erroneous Payment Amount in December 2012                          $5,111
        Future Erroneous Payments (December 2012 Amount * 12 Months)                         $61,336

                             Table B–4: Missing SID Segment Estimates
                                                Past Payment Error               Future Payment
                                                      Amount                      Error Amount
                       Point Estimate                 $955,508                      $613,361
               Projection Lower Limit                 $565,696                      $367,741
               Projection Upper Limit                $1,345,321                     $858,981
       Note: All projections are at the 90-percent confidence level.

We identified 2,100 concurrent beneficiaries who received combined April 2012 SSI and OASDI
payments in excess of Federal limits because of computation errors that occurred when SSA staff
input an unearned income reduction indicator code of “Y” on their payment records, and
continued receiving excess payments in October 2012. We randomly selected 50 of these
records for review and determined that SSA issued excessive SSI payments to all
50 beneficiaries. As of December 2012, SSA continued issuing excessive payments to 49 of the
50 beneficiaries. 5




3
 In one case, SSA payment records for both a concurrent beneficiary and her mother cited the same Social Security
number (SSN). We determined that SSA had issued the mother her own SSN, but erroneously listed the daughter’s
SSN on the payment record. We consider this an administrative error, not a payment error.
4
 As of December 2012, SSA corrected the payment errors on 2 of the 24 records that involved improper payments.
We excluded these records from our forward estimates.
5
 As of December 2012, SSA corrected the payment error on one record. We excluded this record from our forward
estimates.



Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)            B-2
              Table B–5: Unearned Income Reduction Indicator Sample Results
                                 Records in Population                                    2,100
                                                           Sample Size                       50
                               Sample Records with Past Payment Errors                       50
                   Past Payment Error Amounts Through November 2012                     $47,343
                          Sample Records with On-going Payment Errors                        49
                          Erroneous Payment Amount in December 2012                      $2,179
       Future Erroneous Payments (December 2012 Amount * 12 Months)                     $26,146

                  Table B–6: Unearned Income Reduction Indicator Estimates
                                             Past Payment Error         Future Payment Error
                                                   Amount                      Amount
                     Point Estimate               $1,988,391                   $1,098,140
             Projection Lower Limit               $1,498,540                     $865,989
             Projection Upper Limit               $2,478,243                   $1,330,292
       Note: All projections are at the 90-percent confidence level.

Projecting these results to our population of 2,646 cases, we estimate that SSA erroneously paid
beneficiaries approximately $3.4 million. In addition, the Agency will pay approximately
$2 million in additional erroneous payments over the next 12 months if SSA does not correct
theses errors.

           Table B–7: Summary of Questioned Costs and Funds Put to Better Use
                                                                       Questioned     Funds Put to
                                                                          Costs        Better Use
                     Undetermined Reason Sample Results                  $426,744        $280,490
                     Missing SID Segment Sample Results                  $955,508        $613,361
       Unearned Income Reduction Indicator Sample Results              $1,988,391      $1,098,140
                                                   Total               $3,370,643      $1,991,991




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   B-3
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY


MEMORANDUM

Date:      December 27, 2013                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Concurrent Beneficiaries Improperly Receiving
           Payments in Excess of Federal Limits” (A-06-12-22131)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to Gary S.
           Hatcher at (410) 965-0680.

           Attachment




           Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONCURRENT BENEFICIARIES IMPROPERLY RECEIVING PAYMENTS IN
EXCESS OF FEDERAL LIMITS” (A-06-12-22131)

General Comment

We reviewed a small sample of the 2,747 cases the Office of the Inspector General (OIG)
identified as having received combined payments in excess of Federal limits. Our initial review
indicates that we identified and corrected many of the errors during the annual Cost-of-Living
Adjustment (COLA) run and through routine field office case development. As such, we
disagree with OIG’s overpayment estimate of approximately $3.4 million and its projection of
approximately $2 million over the next 12 months.

Recommendation 1

Review the 2,747 cases and take appropriate action to correct payment errors, establish
overpayments, and prevent future payment errors.

Response

We agree. We plan to complete case reviews and take appropriate action by the end of fiscal
year (FY) 2014.

Recommendation 2

Correct the processing errors that resulted in missing Supplemental Security Income (SSI) data
lines on concurrent beneficiaries’ Master Beneficiary Record or involved beneficiaries whose
SSI payment record contained an unearned income reduction indicator code of “y”; or implement
compensating controls to timely identify and correct these errors on individual payment records.

Response

We agree. We plan to submit a Strategic Information Technology Assessment and Review
proposal during the FY 2015 planning cycle to ensure the system is correctly applying our SSI
and computation policies. In the interim, we will continue to manually correct errors during
routine field office case development and systematically correct errors during the annual COLA
run.




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   C-2
Appendix D – MAJOR CONTRIBUTORS
Ron Gunia, Director, Dallas Audit Division

Jason Arrington, Audit Manager

Wanda Renteria, Senior Auditor




Concurrent Beneficiaries Improperly Receiving Payments in Excess of Federal Limits (A-06-12-22131)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.

                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments

                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.

                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
